Supreme Court, U.S.
FILED

WAIVER

NOV 1 8 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-540

Andre Jenkins

City of Cleveland

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of the United States.
El I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.

D•

Signature

mber 15, 2019

Date- N

(Type or print) Name

Luke D. Mahoney
0 Mr. El Ms. 0 Mrs. 0 Miss

Firm

City of Cleveland Department of Law

Address

601 Lakeside Avenue, Suite 106

City & State
Phone

Cleveland, OH

216-664-3601

Zip
Email

44114

Imahoney@city.cleveland.oh.us

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: James R. Willis, Esq. 614 W. Superior Ave. Suite 1144, Cleveland, OH 4413ECEIVED_

NOV 1 9 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

City of Cleveland
Frank G. Jackson, Mayor
Department of Law
Barbara A. Langhenry, Director
601 Lakeside Avenue, Room 106
Cleveland, Ohio 44114-1077
216/664-2800 • Fax: 216/664-2663
www.cleveland-oh.gov

November 15, 2019
VIA FEDEX
Supreme Court of United States
Attn: Clerk's Office
1 First Street, NE
Washington, D.C. 20543
Re:

Andre Jenkins v. City of Cleveland, et al.
Supreme Court of United States Case No. 19-540

Dear Clerk:
Please find enclosed for filing, the City of Cleveland's Waiver in response to the
Petition for Writ of Certiorari.
Sincerely,
/s/ Luke D. Mahoney
Luke D: Mahoney
Assistant Director of Law
Encl.
cc:

James R. Willis

RECEIVED
NOV 1 9 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.

An Equal Opportunity Employer

